TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Monitoring of Privacy Over Taxpayer
                  Data Is Improving, Although Enhancements
                   Can Be Made to Ensure Compliance With
                            Privacy Requirements



                                      September 22, 2006

                              Reference Number: 2006-20-166




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 22, 2006


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Monitoring of Privacy Over Taxpayer Data Is
                               Improving, Although Enhancements Can Be Made to Ensure
                               Compliance With Privacy Requirements (Audit # 200620002)

 This report presents the results of our review to determine whether the Office of Privacy and
 Information Protection has effective controls and procedures to ensure Internal Revenue Service
 (IRS) computer systems and employees adhere to privacy regulations. This review was included
 in the Treasury Inspector General for Tax Administration’s Fiscal Year 2006 Annual Audit Plan
 and was part of the Information Systems Programs statutory requirements to annually review the
 adequacy and security of IRS technology.1

 Impact on the Taxpayer
 The IRS processes and maintains sensitive taxpayer information in computer systems for over
 130 million taxpayers. Privacy Impact Assessments (PIA)2 have not been conducted for all
 computer systems, and compliance with privacy laws has not been adequately monitored. As a
 result, the risk is increased that taxpayers’ identities could be stolen and used for unlawful
 purposes.



 1
   IRS Restructuring and Reform Act of 1998 (RRA 98), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in
 scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C.,
 38 U.S.C., and 49 U.S.C.).
 2
   A PIA is an analysis of how personal information is collected, stored, shared, and managed in a Federal
 Government system. Specifically, a PIA (1) ensures handling conforms to applicable legal, regulatory, and policy
 requirements on privacy; (2) determines the risks and effect of collecting, maintaining, and disseminating personal
 information; and (3) examines and evaluates protection and alternative processes for handling personal data to
 reduce potential privacy risks.
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



Synopsis
The issue of privacy and security over personal information has received much publicity. For
example, the Department of Veterans Affairs3 recently reported that personally identifying data
for as many as 26 million American veterans were stolen from an employee’s home. This
incident received significant attention because the loss of personally identifying data can
represent the first step to identity theft. In 2004, the IRS received more than 130 million
individual taxpayers’ income tax returns. The personal information contained in these returns is
converted into electronic format and used in over
240 IRS computer systems.                                        The IRS is not complying with
                                                                       privacy legislation. As a result,
Within the past 2 years, the Office of Privacy and         the IRS does not have assurance
Information Protection4 has maintained and enhanced          that privacy implications have
the IRS’ privacy program by chairing a working group      been considered and evaluated on
reviewing privacy and disclosure issues and by                all of its computer systems.
creating an online privacy training segment on the
Office of Privacy and Information Protection web site. Despite these efforts, the IRS is not
complying with legislative privacy requirements. Specifically, the IRS can take further actions
to ensure PIAs have been conducted for all systems and applications that collect personal
information and enhance its processes to better monitor compliance with privacy policy and
procedures.
The E-Government Act of 20025 and IRS guidelines require every computer system or project
that collects personal information to have a current PIA on file with the Office of Privacy and
Information Protection. As of August 2005, we were unable to locate PIAs for 130 (54 percent)
of the 241 IRS computers systems that collect and process taxpayer or employee data. We
attribute the missing PIAs to the lack of emphasis on privacy issues and the decision to not
require that all systems be certified and accredited.6
Also, the PIA review process was not always consistently conducted, and review results were not
always properly documented. At the time the Office of Privacy and Information Protection

3
  The Department of Veterans Affairs provides patient care, veterans’ benefits, and customer satisfaction for our
nation’s veterans and their families.
4
  The administration of the IRS’ privacy program is the responsibility of the Director, Office of Privacy and
Information Protection, who reports to the Chief, Mission Assurance and Security Services. The mission of the
Office of Privacy and Information Protection is to ensure IRS policies and programs incorporate taxpayer and
employee privacy requirements and the personal information entrusted to the IRS remains protected, secure, and
private.
5
  Pub. L. No. 107-347 (2002), sec. 208.
6
  Certification and accreditation, as defined and required by the Office of Management and Budget for all Federal
Government automated information systems, is a process to provide assurance that adequate security controls are in
place over computer systems.
                                                                                                                 2
                   The Monitoring of Privacy Over Taxpayer Data Is Improving,
                             Although Enhancements Can Be Made
                       to Ensure Compliance With Privacy Requirements


completed the PIAs, there were no PIA review procedures and no core list of source information
to verify system facts and information. As a result, PIA reviews were not consistently
performed. The analysts did not properly document actions pending or taken in a history log and
can review the answers provided in the PIA only for consistency.
In addition, the Office of Privacy and Information Protection did not conduct any compliance
reviews on existing PIAs. IRS procedures provide for compliance reviews as a means to validate
that information submitted in the PIA truly represents the data being collected in the computer
system or project. These compliance reviews can provide opportunities to update and verify
information stated in the PIAs and ensure business units are complying with privacy policies and
procedures.
By addressing these areas, the Office of Privacy and Information Protection would better fulfill
its responsibility to create and maintain privacy awareness and monitor all uses of taxpayer data
by IRS employees. This will provide the first steps to ensure the security and protection over
taxpayer data throughout the agency.

Recommendations
We recommended the Chief, Mission Assurance and Security Services, request business owners
to identify and report all systems or projects that collect personal identifiable information. A
PIA should be prepared and submitted to the Office of Privacy and Information Protection for
monitoring, oversight, and evaluation. The Director, Office of Privacy and Information
Protection, should establish a centralized repository for all PIAs in a searchable, electronic
format and verify the accuracy of the PIA inventory quarterly; initiate a program providing for
the routine evaluation of employee training activities relative to current privacy policy
requirements and develop a system for the tracking and monitoring of these activities; and
reinforce the importance of PIA case documentation with specific instructions and implement a
compliance review process to assess whether IRS business units are adhering to privacy
regulations.

Response
The Chief, Mission Assurance and Security Services, agreed with our findings and
recommendations. The Office of Privacy and Information Protection will annually cross-walk
(reconcile) the PIA inventory to existing system inventories and provide information to business
owners for systems requiring PIAs. The Office of Privacy and Information Protection will also
develop and implement a process to verify the PIA inventory accuracy quarterly and is
developing an electronic PIA inventory and an electronic document management system for
archiving electronic PIA artifacts. In addition, the Office of Privacy and Information Protection
is establishing privacy awareness training via the mandatory IRS Information Protection training

                                                                                                    3
                   The Monitoring of Privacy Over Taxpayer Data Is Improving,
                             Although Enhancements Can Be Made
                       to Ensure Compliance With Privacy Requirements


and will initiate a job-specific training program for privacy. Training will be deployed via the
IRS Enterprise Learning Management System to ensure accurate monitoring and tracking.
Finally, the Office of Privacy and Information Protection will establish assessment standards for
PIAs to ensure consistency and extent of coverage based on system complexity, along with case
documentation and analysis requirements. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                    4
                         The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                  Although Enhancements Can Be Made
                             to Ensure Compliance With Privacy Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Office of Privacy and Information Protection Needs to Ensure
          Required Privacy Impact Assessments Are Conducted and Tracked...........Page 4
                    Recommendation 1:........................................................Page 7

                    Recommendation 2:........................................................Page 8

          Monitoring of Privacy Compliance Can Be Enhanced.................................Page 8
                    Recommendations 3 and 4: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report ......................Page 17
        The Monitoring of Privacy Over Taxpayer Data Is Improving,
                 Although Enhancements Can Be Made
            to Ensure Compliance With Privacy Requirements




                     Abbreviations

FISMA             Federal Information Security Management Act
IRS               Internal Revenue Service
PIA               Privacy Impact Assessment
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements




                                            Background

Within the Federal Government, privacy can be defined as a citizen’s expectation that personal
information collected for official Government business will be protected from unauthorized use
and access. The issue of privacy and security over personal information has received much
publicity since 2005. For example, in February 2005, the Bank of America reported the loss of
data tapes that contained personal information on 1.2 million Federal Government employees.
More recently, in May 2006, the Department of Veterans Affairs1 reported that personally
identifying data for as many as 26 million American veterans were stolen from an employee’s
home. These incidents received significant attention because the loss of personally identifying
data can represent the first step to identity theft, which occurs when someone uses personal
information, without permission, to commit fraud or other crimes, such as opening fraudulent
credit card accounts and purchasing goods.
The Federal Trade Commission2 has reported increased filings of identity theft complaints, and
the Privacy Rights Clearinghouse3 estimates that, during 2005, over 50 million people had been
put at risk as a result of security breaches. The average identity theft victim spends 175 hours
and $800 resolving identity theft-related issues, and it takes 2 years to 4 years for victims to
resolve all the resulting problems.
Like the private sector, the Federal Government                       The mission of the IRS Office of
collects enormous amounts of personal information                   Privacy and Information Protection
                                                                       is to ensure IRS policies and
from private citizens. For example, in 2004 the
                                                                   programs incorporate taxpayer and
Internal Revenue Service (IRS) received more than                  employee privacy requirements, and
130 million individual taxpayers’ income tax returns.               the personal information entrusted
Each of these tax returns includes the filer’s name,                   to the IRS remains protected,
address, Social Security Number, and other personal                         secure, and private.
financial data. This personal information is




1
  The Department of Veterans Affairs provides patient care, veterans’ benefits, and customer satisfaction for our
nation’s veterans and their families.
2
  The Federal Trade Commission was created in 1914 to prevent unfair methods of competition in commerce and to
police anticompetitive practices.
3
  The Privacy Rights Clearinghouse is a nonprofit consumer organization established to raise consumer awareness of
how technology affects personal privacy, empower consumers to take action to control their own personal
information by providing practical tips on privacy protection, and respond to and document specific privacy-related
complaints from consumers.
                                                                                                           Page 1
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



converted into electronic format and used in over 240 IRS computer systems, such as the
Integrated Data Retrieval System.4
From a legislative perspective, the issue of privacy is governed by several laws. The Privacy Act
of 19745 placed limitations on Federal Government agencies’ collection, disclosure, and use of
personal information maintained in computer systems. More recently, the E-Government Act
of 20026 provided additional protection for personal information by requiring agencies to
conduct Privacy Impact Assessments (PIA). A PIA is required for every computer system or
project that collects personal information and must be maintained by the bureaus and agencies.
A PIA represents an analysis of how personal information is handled to ensure it conforms to
applicable legal and regulatory requirements over privacy; determines the risks and effects of
collecting, maintaining, and disseminating information in identifiable form; and examines and
evaluates protections and alternative processes for handling information to reduce potential
privacy risks. Systems must be reevaluated every 3 years or when major system modifications7
occur.
In addition, the Consolidated Appropriations Act of 2005, Section 522,8 required each agency to
have a Chief Privacy Officer to assume the responsibility for privacy and data protection policy.
These legislative requirements provide the need for a strong privacy program within Federal
Government bureaus and agencies.
The administration of the IRS privacy program is the responsibility of the Director, Office of
Privacy and Information Protection, who reports directly to the Chief, Mission Assurance and
Security Services. The mission of the Office of Privacy and Information Protection is to ensure
IRS policies and programs incorporate taxpayer and employee privacy requirements and the
personal information entrusted to the IRS remains protected, secure, and private.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Privacy and Information Protection during the period September 2005 through March 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
  This is an IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
5
  5 U.S.C. § 552a (a)(5).
6
  Pub. L. No. 107-347 (2002), sec. 208.
7
  A major modification is any programming or equipment change that affects how the system interfaces with users,
processes data, or generates reports. In addition, these changes may affect the security of the system.
8
  Pub. L. No. 108-447, 188 Stat. 2268, 5 U.S.C. 522a note.
                                                                                                            Page 2
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements




                                      Results of Review

Because of the large amount of personal information it receives and concern over privacy
implications of maintaining that information, the IRS established the Privacy Advocate position
in 1993, becoming the first Federal Government agency to assign privacy to an executive
official. Within the past 2 years, the Office of Privacy and Information Protection has
maintained and enhanced the IRS’ privacy program by:
    •   Chairing a working group reviewing privacy and disclosure issues to be included in the
        IRS annual security training, as well as serving as a member of several inter- and
        intra-agency committees and task groups.
    •   Increasing privacy awareness by having the Office of Privacy and Information Protection
        actively participate in the IRS’ annual Security Awareness week in the National
        Headquarters Office.
    •   Updating and distributing privacy literature to IRS security managers and records officers
        and to over 70,000 volunteer tax preparers through Volunteer Income Tax Assistance9
        and Tax Counseling for the Elderly10 Centers.
    •   Creating an online privacy training segment on the Office of Privacy and Information
        Protection web site.
Despite the Office of Privacy and Information
                                                         The IRS can take further actions to
Protection’s efforts to increase privacy awareness       ensure PIAs have been conducted
and manage its program, the IRS is not complying              for all systems that collect
with legislative privacy requirements and, thus, is      personal information and enhance
not ensuring the privacy of taxpayer data is being         its processes to better monitor
tracked and monitored adequately. Specifically, the        compliance    with privacy policy
                                                                       procedures.
IRS can take further actions to ensure PIAs have
been conducted for all systems and applications that
collect personal information and enhance its processes to better monitor compliance with privacy

9
  The Volunteer Income Tax Assistance Program offers free tax help for low- to moderate-income (approximately
$38,000) people who cannot prepare their own tax returns. Volunteers, sponsored by various organizations, receive
training to help prepare basic tax returns in communities across the country. Volunteer Income Tax Assistance sites
are generally located at community and neighborhood centers, libraries, schools, shopping malls, and other
convenient locations. Some locations also offer free electronic filing.
10
   The Tax Counseling for the Elderly Program provides free tax help to people age 60 and older. Trained
volunteers from nonprofit organizations provide free tax counseling and basic income tax return preparation for
senior citizens. Volunteers who provide tax counseling are often retired individuals associated with nonprofit
organizations that receive grants from the IRS.
                                                                                                           Page 3
                       The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                Although Enhancements Can Be Made
                           to Ensure Compliance With Privacy Requirements



policy and procedures. These improvements will allow the IRS to better identify and monitor all
uses of taxpayer data and will provide the first steps to ensure the security and protection over
taxpayer data throughout the agency.

The Office of Privacy and Information Protection Needs to Ensure
Required Privacy Impact Assessments Are Conducted and Tracked

Computer systems that collect personal information did not have PIAs
The E-Government Act of 2002 and IRS guidelines require every computer system or project
that collects personal information to have a current PIA on file with the Office of Privacy and
Information Protection. The existence of the PIA provides reasonable assurance that privacy
implications have been considered and evaluated in the collection of the data. Systems must be
reevaluated every 3 years.
As of August 2005, the IRS maintained 281 computer systems to assist in tax administration.
Of these, 241 collected and processed personal information, consisting of either taxpayer or
employee data. Based on privacy requirements, each of these 241 systems should have a PIA
completed by system owners and maintained by the Office of Privacy and Information
Protection. However, we were unable to locate PIAs for 130 (54 percent) of the 241 computer
systems.
The IRS classifies its computer systems into three categories: general support systems, major
applications, and nonmajor applications.11 Table 1 presents the number of computer systems in
each classification that did not have a PIA.




11
  A general support system is an interconnected set of information resources under the same direct management
control that shares common functionality. A major application is a computer system that requires special
management oversight because of the information it contains, processes, or transmits or because of its criticality to
the organization’s mission. A nonmajor application is a computer system that does not require special management
oversight because the information it contains, processes, or transmits is less critical to the organization’s mission.
                                                                                                               Page 4
                       The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                Although Enhancements Can Be Made
                           to Ensure Compliance With Privacy Requirements



                     Table 1: Number of Computer Systems Without PIAs
                           That Collect Taxpayer or Employee Data
                                       Total            Number of Computer              Number of Computer
                                     Number of          Systems That Process             Systems Without a
     System Classification
                                     Computer           or Collect Personally              Required PIA
                                      Systems             Identifiable Data                  Statement

     General Support                      29                        29                          21 (72%)
     Systems

     Major Applications                   53                        53                            5 (9%)

     Nonmajor Applications               199                       159                         104 (65%)

      Totals                             281                       241                         130 (54%)

Source: The Office of Privacy and Information Protection’s inventory lists and our report entitled Treasury
Inspector General for Tax Administration - Federal Information Security Management Act Report for Fiscal
Year 2005 (Reference Number 2006-20-071, dated October 2005).

We attribute the missing PIAs to the lack of emphasis on privacy issues and the decision to not
require that all systems be certified and accredited,12 which included the submission of PIAs as
part of the certification process.
       •   We believe the IRS did not maintain an emphasis on the importance of privacy prior to
           the arrival of the current Director, Office of Privacy and Information Protection, in
           April 2005. The Office of Privacy and Information Protection has had three different
           Directors and several acting officials since 2003 and has encountered several
           organizational changes; the latest was in 2005 when it moved from directly reporting to
           the Deputy Commissioner for Operations Support to the Chief, Mission Assurance and
           Security Services. This lack of a permanent Director and organizational shuffling has not
           provided leadership continuity and organizational stability to the Office of Privacy and
           Information Protection and, as a result, has not allowed the importance of privacy to
           remain in the forefront within the IRS. In addition, the current Office of Privacy and
           Information Protection is authorized only 10 Full-Time Equivalent13 employee positions,

12
   Certification is the comprehensive evaluation of the technical and nontechnical security controls and the
identification of any weaknesses with those controls or lack thereof. Accreditation is an authorization granted by a
management official to operate the system based on the evaluation of the security controls. It is a statement that the
management official (i.e., the accrediting official) is aware of, understands, and accepts responsibility for the risks
associated with placing the system into operation. Certification and accreditation, as defined and required by the
Office of Management and Budget for all Federal Government automated information systems, is a process to
provide assurance that adequate security controls are in place over computer systems.
13
   A Full-Time Equivalent is a measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours
multiplied by the number of compensable days in a particular fiscal year.
                                                                                                               Page 5
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



         which consist of 1 Director, 1 Deputy Director (currently vacant), 1 staff assistant, and
         7 staff analysts (1 currently vacant), to implement its mission and oversee privacy within
         the IRS, an organization of over 100,000 employees.
     •   In 2005, the Office of Mission Assurance and Security Services assigned all of its
         nonmajor applications to 1 of the 29 general support systems. The rationale for this
         classification was that the general support systems would provide the majority of the
         security controls for the nonmajor applications. As such, the IRS placed less emphasis on
         documenting security and privacy requirements for the nonmajor applications, which
         included the completion of certification and accreditation. The certification process
         includes the submission of PIAs. This decision appears to explain why we were unable
         to locate PIAs for 65 percent of the nonmajor applications.14
The Office of Privacy and Information Protection, as part of its own poststudy review of the
Federal Information Security Management Act (FISMA)15 reporting process, found that
“mapping the Office of Privacy and Information Protection inventory to the Fiscal Year 2005
FISMA inventory was difficult due to the inability to clearly identify the subcomponents of the
general support systems and major applications.” The Office of Privacy and Information
Protection has acknowledged the lack of PIAs as a weakness and has taken proactive steps to
increase privacy awareness, such as conducting awareness presentations to IRS business unit
executives and in the IRS’ annual Security Awareness week in the National Headquarters Office
on the risks and requirements of privacy for computer systems maintaining personal identifiable
information.
We believe it is critical that the IRS complete PIAs for all computer systems or projects in which
personal information is collected, processed, used, and/or stored. When PIAs are not prepared
and properly maintained, the IRS is unaware of all instances in which the collection of data is
occurring, and the IRS could be violating privacy regulations and unnecessarily exposing
sensitive data to theft or misuse. As such, public trust could be lost when privacy risks are not
identified and privacy protections are not adhered to.

An effective management information system to track PIAs does not exist
The Office of Privacy and Information Protection recognizes that sound business practice
requires a functional and useful centralized management information system to track and monitor
its PIAs. The Office of Privacy and Information Protection is currently using a system



14
   The IRS has recently changed this requirement and decided to require certification and accreditation for all
systems, regardless of classification, for Fiscal Year 2006.
15
   The FISMA is part of the E Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002). The
FISMA includes protecting information and information systems from unauthorized access, use, disclosure, or
modification, including controls for disclosure and confidentiality to protect personal privacy.
                                                                                                           Page 6
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



developed by the Office of Disclosure.16 This system contains pre-set data fields and cannot be
customized to add more useful information, so it is mainly used to assign and generate PIA
control numbers. Because of this limitation, the Office of Privacy and Information Protection
created two additional inventory systems to capture specific information for different uses. One
system is used to calculate the number of days the PIA is open and when a recertification is due,
and the second system is a working file for the analysts. Inefficiencies exist when the staff need
to query two inventory lists to obtain basic information, such as the system name and associated
PIA control number. Also, maintaining multiple inventory lists creates data inaccuracies, such as
determining when a recertification of a system’s PIA is due. For example, we identified the
following discrepancies among the several PIA lists:
     •   There were 91 computer systems listed as recertified that had different PIA completion
         dates on each of the 3 lists.
     •   There were 20 computer systems listed as either “Retire” or “Dead”17 on 1 list but shown
         as recertified on another list.
The Office of Privacy and Information Protection has also identified its management information
system as a weakness in its poststudy review of the FISMA reporting process. As a result, the
Office of Privacy and Information Protection is developing an electronic, menu-driven, and more
user-friendly version of the PIA and has plans to incorporate and implement the new PIA in a
new management information system scheduled to be completed by the end of Fiscal Year 2006.

Recommendations
Recommendation 1: The Chief, Mission Assurance and Security Services, should request
IRS business owners to identify and report all systems or projects that collect personal
identifiable information. A PIA should be prepared and submitted to the Office of Privacy and
Information Protection for monitoring, oversight, and evaluation.
         Management’s Response: IRS management agreed with this recommendation. The
         Office of Privacy and Information Protection will annually cross-walk (reconcile) the
         PIA inventory to existing system inventories and provide information to business owners
         for systems requiring PIAs. The Office of Privacy and Information Protection will also
         conduct a study to identify PIA process improvements to ensure limited resources are
         focused on systems that collect personal identifiable information and will establish
         policy, based on the study, for systems that require a PIA.


16
   The Office of Disclosure reports to the Director, Communications, Liaison, and Disclosure, within the Small
Business/Self-Employed Division. The Office of Privacy and Information Protection reported to the Office of
Disclosure from 2000 until 2003.
17
   Retired and dead computer systems are those no longer in use and no longer processing data for tax
administration.
                                                                                                           Page 7
                   The Monitoring of Privacy Over Taxpayer Data Is Improving,
                            Although Enhancements Can Be Made
                       to Ensure Compliance With Privacy Requirements



Recommendation 2: The Director, Office of Privacy and Information Protection, should
establish a centralized repository for all PIAs in a searchable, electronic format. The process
should be developed to verify the accuracy of the PIA inventory quarterly. The Office of
Privacy and Information Protection should also develop an electronic document management
system for archiving electronic PIA artifacts.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Privacy and Information Protection will develop and implement a process to
       verify the PIA inventory accuracy quarterly. The Office of Privacy and Information
       Protection is also developing an electronic PIA inventory and an electronic document
       management system for archiving electronic PIA artifacts.

Monitoring of Privacy Compliance Can Be Enhanced
The Office of Privacy and Information Protection’s role in the organization is to ensure the IRS
is complying with privacy requirements. The E-Government Act established that the primary
control over privacy compliance for the Federal Government is the use of PIAs. While the main
goal should be to have complete and accurate PIAs for all instances in which the IRS is
collecting and using sensitive data (i.e., taxpayer or employee data), equally important are the
processes to ensure PIAs are being properly and accurately completed. Compliance with privacy
requirements can be segmented into three key activities:
   1. Providing awareness training to IRS employees on the privacy of taxpayer data
      requirements and on the completion of PIAs for all instances in which sensitive data are
      being collected.
   2. Conducting initial reviews of submitted PIAs for completeness, accuracy, and
      consistency with IRS requirements.
   3. Conducting compliance reviews of existing PIAs to validate adherences to information
      submitted in the PIAs.
We assessed the Office of Privacy and Information Protection’s efforts in these three areas and
determined it did not have a formal privacy training program, initial reviews of PIAs could be
enhanced and better documented, and compliance reviews of PIAs were not conducted. By
addressing these areas, the Office of Privacy and Information Protection would better fulfill its
responsibility to create and maintain privacy awareness among IRS employees and monitor
compliance with privacy requirements for the IRS as a whole.

The Office of Privacy and Information Protection does not have a formal training
program
In an effort to help identify systems collecting personal information and increase awareness and
compliance with privacy requirements, the Office of Privacy and Information Protection

                                                                                            Page 8
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



conducts ad hoc training and awareness presentations whenever the opportunity arises. For
example, the Director, Office of Privacy and Information Protection, and senior staff are
members of task forces, committees, and professional organizations and have provided privacy
expertise and privacy-related presentations at various meetings. This includes proactively giving
awareness presentations to IRS business unit executives on the risks and requirements of privacy
for computer systems maintaining personal identifiable information and collaborating with other
IRS business units and the Department of the Treasury on proposed revisions to tax laws and
implementation of a Department-wide PIA initiative. The Office of Privacy and Information
Protection also developed an online, self-study privacy awareness segment that is available to all
IRS employees. However, the Office of Privacy and Information Protection does not have a
regular awareness training schedule or specific role-based privacy training, nor does it mandate
the completion of its online, self-study privacy awareness training by all employees.
In addition, the Office of Privacy and Information Protection does not have a formal
management information system to track training delivered to IRS employees. The Office of
Privacy and Information Protection was unable to provide such basic information as the number
of IRS employees and contractors who attended privacy-related training courses and awareness
presentations, training costs expended, or staff days applied toward training. Due to our review,
the Office of Privacy and Information Protection recently requested IRS employees who have
completed the online, self-study privacy awareness training on the Office of Privacy and
Information Protection’s web site to send copies of their certificates of completion for tracking
and documentation purposes. The Office of Privacy and Information Protection stated that, due
to limited resources and staffing, a management information system to track privacy will be a
long-range goal. The Director, Office of Privacy and Information Protection, is also working to
develop a computer-based module to be included as part of the mandatory computer security and
Unauthorized Access training.18
Without a formal training program and an effective tracking system, the Office of Privacy and
Information Protection cannot be assured it is meeting its mission to inform, educate, and make
all IRS employees aware of important privacy issues, policies, and requirements.

The PIA review process needs to be improved, and review documentation
requirements need to be strengthened
Our analysis of a sample of 20 PIAs determined the PIA review process was not always
consistently conducted and review results were not always properly documented. The 20 PIAs
were conducted from November 2002 to September 2005. Specifically:




18
  Unauthorized Access training is an annual requirement for all IRS employees as a result of the Taxpayer
Browsing Act of 1997, 26 U.S.C.A. §§ 7213, 7213A, 7431 (West Supp. 2003).
                                                                                                            Page 9
                     The Monitoring of Privacy Over Taxpayer Data Is Improving,
                              Although Enhancements Can Be Made
                         to Ensure Compliance With Privacy Requirements



     •   Nine of the 20 PIAs were cursory and the information provided was taken at face value,
         especially for current production environment systems19 for which supporting information
         may not be available or does not exist.
     •   Eleven of the 20 PIAs were lacking case history information and supporting
         documentation for statements made in the PIA, which, at a minimum, should be included
         in the case file. Most case files had comments or concerns made on the initial version of
         the PIA, but there were no indications as to the response or resolution of the comments or
         concerns. Generally, there was no case history information, which, if available, could be
         used by the Office of Privacy and Information Protection to better manage the privacy
         program through internal reviews and to determine whether further actions are needed or
         reasons for delays.
     •   Six of the 20 PIAs were to recertify an existing system. A simple, one-page form was
         used to recertify a PIA, but there was no supporting documentation or history log to
         indicate whether an indepth analysis was conducted to support the recertification or to
         verify the system had no “significant changes” subsequent to when the original PIA was
         prepared.
At the time the Office of Privacy and Information Protection completed the PIAs, there were no
PIA review procedures, nor was there an available core list of source information to verify
system facts and information. As a result, PIA reviews were not consistently performed. The
analysts did not properly document actions pending or taken in a history log and can review the
answers provided in the PIA only for consistency.
This issue was also reported by the Government Accountability Office.20 The report cited the
lack of a comprehensive assessment over an IRS system selected for review by not analyzing
how the agency reached its decision in its response to a PIA question. The report stated that the
IRS did not fully address these steps because it used a prior version of the guidance issued by the
Office of Management and Budget.
Continued implementation of PIA review procedures would allow the Office of Privacy and
Information Protection to (1) maintain a consistent quality of work and protect the IRS from
violations of privacy regulations and statutes by identifying risks in the system and (2) limit
information collection.




19
  These are computer systems currently in use and processing data for tax administration.
20
  Data Mining, Agencies Have Taken Key Steps to Protect Privacy in Selected Efforts, but Significant Compliance
Issues Remain (GAO 05-866, dated August 2005).
                                                                                                       Page 10
                  The Monitoring of Privacy Over Taxpayer Data Is Improving,
                           Although Enhancements Can Be Made
                      to Ensure Compliance With Privacy Requirements



The Office of Privacy and Information Protection did not conduct compliance
reviews
Based on discussions with Office of Privacy and Information Protection personnel, we
determined the Office of Privacy and Information Protection did not conduct any compliance
reviews on existing PIAs. IRS procedures provide for compliance reviews as a means to validate
that information submitted in a PIA truly represents the data being collected in the computer
system or project. These compliance reviews can provide opportunities to update and verify
information stated in the PIAs and ensure business units are complying with privacy policies and
procedures. Compliance reviews also allow the Office of Privacy and Information Protection to
have visibility within the IRS and to spread the importance of privacy throughout the agency.
The Office of Privacy and Information Protection recognizes the lack of compliance reviews as a
deficiency, and the Director hopes to redirect limited resources and staffing in the Fiscal
Year 2006 Business Plan to address and implement this plan of action. As mentioned above,
implementation of these procedures would allow the Office of Privacy and Information
Protection to maintain a consistent quality of work and better manage the privacy program.

Recommendations
Recommendation 3: To monitor employee privacy awareness training, the Director, Office
of Privacy and Information Protection, should initiate a program providing for the routine
evaluation of employee training activities relative to current privacy policy requirements and
develop a system for the tracking and monitoring of these activities.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Privacy and Information Protection is establishing privacy awareness training
       via the mandatory IRS Information Protection training. Also, the Office of Privacy and
       Information Protection will conduct an assessment of roles for which training must be
       given and initiate a job-specific training program for privacy. In addition, training
       modules on IRS privacy products, such as the PIA, will be developed. Training will be
       deployed via the IRS Enterprise Learning Management System to ensure accurate
       monitoring and tracking. To supplement the training, the Office of Privacy and
       Information Protection will develop and deploy an assessment methodology to survey
       IRS employees annually of their knowledge of privacy policy requirements, which will
       provide feedback on employee awareness and training needs.
Recommendation 4: The Director, Office of Privacy and Information Protection, should
reinforce the importance of PIA case documentation with specific instructions or case models
and implement a compliance review process to assess whether IRS business units are adhering to
privacy regulations, given the limited resources and staff knowledge in conducting these reviews.



                                                                                         Page 11
           The Monitoring of Privacy Over Taxpayer Data Is Improving,
                    Although Enhancements Can Be Made
               to Ensure Compliance With Privacy Requirements



Management’s Response: IRS management agreed with this recommendation. The
Office of Privacy and Information Protection will establish assessment standards for PIAs
to ensure consistency and extent of coverage based on system complexity, along with
case documentation and analysis requirements. For the short term, the Office of Privacy
and Information Protection will investigate tools, conduct a pilot of selected tools, assess
results, and implement interim measures to establish and implement compliance review
guidelines and a process to ensure adherence to privacy regulations. For the long term,
the Office of Privacy and Information Protection will build on knowledge obtained in the
short term and implement comprehensive measures to establish and implement
compliance review guidelines and processes.




                                                                                    Page 12
                      The Monitoring of Privacy Over Taxpayer Data Is Improving,
                               Although Enhancements Can Be Made
                          to Ensure Compliance With Privacy Requirements



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Office of Privacy and
Information Protection1 has effective controls and procedures to ensure IRS computer systems
and employees adhere to privacy regulations. To accomplish this objective, we:
I.       Determined whether Office of Privacy and Information Protection controls and
         procedures were in place to ensure adherence to privacy regulations.
         A. Determined whether a management information system was in place to track PIAs,2
            evaluated the type of data captured by the system, and obtained a list of all PIAs
            conducted to determine whether all systems in the IRS had a description of the
            information being maintained from a privacy perspective.
         B. Selected and reviewed a representative judgmental sample of 20 of the 241 IRS
            systems that collect and process either taxpayer or employee personal information.
            We validated selected information from the PIAs to determine whether responses
            were accurate and adequately supported by documentation. We used a judgmental
            sample because we did not plan to project our results to the population and had
            received agreement to our conclusions after we completed our review of the 20 PIAs.
         C. Obtained a list of privacy training classes and awareness presentations conducted
            since October 2003, determined whether a management information system was in
            place to track training sessions, and evaluated the type of data captured.
         D. Evaluated the Fiscal Year 2005 and 2006 Business Plans for the Office of Privacy and
            Information Protection to determine whether plans and goals were included to
            promote employee and contractor privacy responsibilities, promote the mission and
            activities of the Office of Privacy and Information Protection, and make all
            employees and contractors aware of relevant privacy laws and policies.

1
  The administration of the IRS’ privacy program is the responsibility of the Director, Office of Privacy and
Information Protection, who reports to the Chief, Mission Assurance and Security Services. The mission of the
Office of Privacy and Information Protection is to ensure IRS policies and programs incorporate taxpayer and
employee privacy requirements and the personal information entrusted to the IRS remains protected, secure, and
private.
2
  A PIA is an analysis of how personal information is collected, stored, shared, and managed in a Federal
Government system. Specifically, a PIA (1) ensures handling conforms to applicable legal, regulatory, and policy
requirements on privacy; (2) determines the risks and effect of collecting, maintaining, and disseminating personal
information; and (3) examines and evaluates protection and alternative processes for handling personal data to
reduce potential privacy risks.
                                                                                                           Page 13
                        The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                 Although Enhancements Can Be Made
                            to Ensure Compliance With Privacy Requirements



           E. Ascertained whether the Office of Privacy and Information Protection conducts
              compliance or “safeguard” reviews.
           F. For the PIAs sampled in Step I.B, interviewed the business owner, program manager,
              and system administrator of the computer system to determine whether they had
              attended a privacy training class or awareness presentation within the past 2 calendar
              years; completed the online privacy training session available on the Office of
              Privacy and Information Protection web site; and coordinated adequately with the
              Office of Privacy and Information Protection, Office of Disclosure, and Office of
              Security.
           G. Obtained from the Treasury Inspector General for Tax Administration Office of
              Investigations and the IRS Office of Disclosure a list of all instances of unauthorized
              and inadvertent disclosure of sensitive information. We evaluated whether a
              management information system was in place to track unauthorized disclosures and
              the type of data captured by the system.
II.        Determined whether all programs (systems and research projects) collecting personally
           identifiable data had PIAs.
           A. Met with Office of Privacy and Information Protection staff to determine their
              interpretation of the Consolidated Appropriation Act,3 as it applies to “programs
              collecting personally identifiable data.”
           B. Obtained and reviewed the IRS inventory of computer systems included in our report
              entitled Treasury Inspector General for Tax Administration - Federal Information
              Security Management Act Report for Fiscal Year 2005 (Reference Number
              2006-20-071, dated October 2005) to identify systems that meet the definition of a
              “program collecting personally identifiable data” but did not have PIAs.
           C. Obtained the Office of Privacy and Information Protection documentation supporting
              its responses to Section D (Reporting Template for Senior Agency Officials for
              Privacy) of the FISMA Reporting for Fiscal Year 2005 and reviewed the
              documentation to validate the accuracy of its “cross-walk” (reconciliation) of PIAs to
              the IRS inventory of computer systems.
           D. Met with Office of Privacy and Information Protection personnel to discuss whether
              research projects meet the definition of “programs collecting personally identifiable
              data” that would require a PIA, particularly those conducted by the Office of
              Research or the Office of Statistics of Income.




3
    Pub. L. No. 108-447, 188 Stat. 2268, 5 U.S.C. 522a note.
                                                                                              Page 14
                  The Monitoring of Privacy Over Taxpayer Data Is Improving,
                           Although Enhancements Can Be Made
                      to Ensure Compliance With Privacy Requirements



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Kent Sagara, Acting Director
Joseph Cooney, Acting Audit Manager
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Jackie Nguyen, Senior Auditor




                                                                                     Page 15
                 The Monitoring of Privacy Over Taxpayer Data Is Improving,
                          Although Enhancements Can Be Made
                     to Ensure Compliance With Privacy Requirements



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Acting Chief Information Officer OS:CIO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Office of Privacy and Information Protection OS:MA:OPIP
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Acting Chief Information Officer: OS:CIO
       Chief, Mission Assurance and Security Services: OS:MA




                                                                                    Page 16
     The Monitoring of Privacy Over Taxpayer Data Is Improving,
              Although Enhancements Can Be Made
         to Ensure Compliance With Privacy Requirements



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 17
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 18
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 19
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 20
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 21
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 22
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 23
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 24
The Monitoring of Privacy Over Taxpayer Data Is Improving,
         Although Enhancements Can Be Made
    to Ensure Compliance With Privacy Requirements




                                                      Page 25
